TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                   Procedures Need to Be Developed for
                Collection Issues Associated With Individual
                      Taxpayer Identification Numbers



                                       March 29, 2010

                           Reference Number: 2010-40-040




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review
 process and information determined to be restricted from public release has been redacted from
                                          this document.

 Redaction Legend:
 1 = Tax Return/Return Information
 2(e) = Law Enforcement Procedure(s)
 2(f) = Risk Circumvention of Agency Regulation or Statute (whichever is applicable)

 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                 DEPARTMENT OF THE TREASURY
                                                       WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                 March 29, 2010


 MEMORANDUM FOR DEPUTY COMMISSIONER FOR OPERATIONS SUPPORT
                COMMISSIONER, SMALL BUSINESS/
                SELF-EMPLOYED DIVISION
                COMMISSIONER, WAGE AND INVESTMENT DIVISION

 FROM:                         Michael R. Phillips
                               Deputy Inspector General for Audit

 SUBJECT:                      Final Audit Report – Procedures Need to Be Developed for Collection
                               Issues Associated With Individual Taxpayer Identification Numbers
                               (Audit # 200940042)

 This report presents the results of our review to determine whether the Internal Revenue Service
 (IRS) has procedures to effectively handle collection issues related to Individual Taxpayer
 Identification Numbers (ITIN). 1 This audit is included in the Treasury Inspector General for Tax
 Administration’s (TIGTA) Fiscal Year 2010 Annual Audit Plan and was conducted due to
 concerns raised by an IRS employee. This audit addresses the major management challenges of
 Taxpayer Privacy and Protection, Leveraging Data to Improve Program Effectiveness and
 Reduce Costs, and Providing Quality Taxpayer Service Operations.

 Impact on the Taxpayer
 Many tax returns are filed by individuals who have used another person’s Social Security
 Number or another person’s name and Social Security Number to work, but file Federal tax
 returns using their own names and assigned ITINs. When collection actions are taken on the
 account of the legitimate holder of the Social Security Number, tax complications can occur for
 both the legitimate holder of the Social Security Number used by other(s) to work and the
 individual who used another person’s Social Security Number to work. Without collection


 1
   The ITIN was created to provide individuals who are not eligible to obtain a Social Security Number with an
 identification number for tax purposes. An ITIN does not change the recipient’s immigration status or confer the
 right of employment in the United States.
                                  Procedures Need to Be Developed for
                         Collection Issues Associated With Individual Taxpayer
                                         Identification Numbers


procedures in place, taxpayers cannot be assured that the correct actions are being taken to
address their issues.

Synopsis
An IRS employee contacted the TIGTA with concerns about the lack of guidance available to
resolve levy 2 issues associated with ITINs and individuals who work using another person’s
identity. Individuals using another person’s Social Security Number to work were having their
wages attached by levies associated with the account of the legitimate holder of the Social
Security Number.
The following actions are not required and were not taken to ensure:
    •   The wages earned by the ITIN taxpayer were reported on a tax return using an ITIN.
    •   The account of the legitimate holder of the Social Security Number was referred to the
        IRS’ Identity Theft function and an indicator placed on the taxpayer’s account.
    •   The wages were removed from the account of the legitimate holder of the Social Security
        Number.
Guidelines should be updated to handle collection issues associated with ITINs. There are no
internal guidelines that address what an IRS employee should do when an individual who used
another person’s Social Security Number to work contacts the IRS to have a wage levy released.
Taxpayer Assistance Center 3 guidelines state that taxpayers will generally visit a Taxpayer
Assistance Center once they learn that a Notice of Levy has been attached and will request a
release. Employees above a certain pay grade level may release a levy under certain
circumstances using IRS Collection function guidelines. These guidelines do not provide
instructions for notifying the taxpayer whose Social Security Number is being used of potential
identity theft related to levies attached to the wages of the individual using his or her Social
Security Number to work. This also holds true for assistors who answer the toll-free telephone
lines.
Although this situation deals with the issue of a wage levy, other collection issues related to
ITIN taxpayers could be presented to IRS employees. The IRS has not updated its internal
guidelines to include collection issues related to identity theft and ITINs.
Further, the IRS has no procedures for employees to initiate a process for notifying the taxpayer
whose Social Security Number has been stolen. Income matching and collection issues

2
 A levy is a legal seizure of property to satisfy a tax debt.
3
 A local IRS office with employees who answer questions, provide assistance, and resolve account-related issues
for taxpayers face to face.
                                                                                                                  2
                                  Procedures Need to Be Developed for
                         Collection Issues Associated With Individual Taxpayer
                                         Identification Numbers


associated with ITINs also present many challenges to tax administration. The IRS associates
taxpayers with tax records using a Taxpayer Identification Number, be it an ITIN, Social
Security Number, or Employer Identification Number. 4 Using the Taxpayer Identification
Number, the IRS matches income and wages from reporting documents to taxpayers’ tax returns.
Problems occur when there are mismatches, such as the name does not match the assigned Social
Security Number, the taxpayer used a Social Security Number to work but filed a tax return
using an ITIN, or the taxpayer used an ITIN to work and report wages and income.
From a statistical sample of 96 records from a population of 551,108 Tax Year 2007 returns:
    •   4 records (4 percent) showed the taxpayer filed a tax return using an ITIN but used
        another person’s name and Social Security Number to work (possible instances of
        identity theft).
    •   73 records (76 percent) showed the taxpayer used his or her name but another person’s
        Social Security Number to work.
    •   19 (20 percent) records that included Wage and Tax Statements (Form W-2) could not be
        matched to any employers’ records.
The IRS stated there were almost 3 million Tax Year 2007 ITIN tax returns. Our analysis
showed that about 1.2 million Tax Year 2007 ITIN tax returns reported wages earned by ITIN
taxpayers using another person’s Social Security Number.
In addition, the IRS cannot currently identify cases created by ITIN taxpayers who used another
person’s name and Social Security Number to work. This prevents the IRS from notifying the
legitimate holder of the Social Security Number who may be the victim of identity theft.

Recommendations
We recommended that the Commissioners, Small Business/Self-Employed and Wage and
Investment Divisions, update internal procedures and guidelines to ensure all collection issues
are considered and all required actions are taken to resolve the issues and establish a process to
notify a taxpayer when there is evidence that the taxpayer’s identity (name and Social Security
Number) has been compromised. In addition, the Deputy Commissioner for Operations Support
should develop a cross-referencing process to match ITIN tax returns to the related reporting
returns and develop a process to capture data to determine potential identity theft victims.




4
  An Employer Identification Number is a Federal Tax Identification Number used to identify a business entity,
including estates and trusts.
                                                                                                                 3
                                     Procedures Need to Be Developed for
                            Collection Issues Associated With Individual Taxpayer
                                            Identification Numbers



Response
The IRS generally agreed with our recommendations. The IRS has begun taking steps to update
its internal guidelines and has a process to mark accounts of taxpayers who report they are
victims of identity theft. The IRS disagreed with the assertion that it does not have procedures to
notify taxpayers when there is clear evidence of identity theft. It states the Social Security
Administration has a program in place to request information from individuals when there is a
mismatch of Forms W-2.
The IRS will explore the feasibility of expanding the use of identity theft indicators and
notification processes where it has the capability and legal authority to do so and where doing so
would be beneficial to taxpayers. The IRS stated it has already begun developing a process to
match ITIN returns to their related reporting returns and has procedures through the Electronic
Fraud Detection System 5 to identify potential identity theft victims. The IRS agreed to explore
the feasibility of a process to more broadly capture data to determine potential identity theft
victims. Management’s complete response to the draft report is included as Appendix V.

Office of Audit Comments
In its response to Recommendation 1, the IRS stated that all IRS functions have procedures in
place to mark accounts when taxpayers report they are victims of identity theft and provide
standard documentation. The IRS also stated it has a process in place to resolve account issues
for taxpayers who have been victims of identity theft. However, as we reported, internal
guidelines for Taxpayer Assistance Center employees instruct them not to put an identity theft
indicator on the taxpayer account since the ITIN taxpayer (borrower) who came into the
Taxpayer Assistance Center is not the identity theft victim. Employees are also not instructed to
forward the case to the Identity Theft function so that it can place an identity theft indicator on
the account. Therefore, there is no procedure in place to resolve the identity theft victim’s
account when it is not the identity theft victim who reported the problem.
In its response to Recommendation 2, the IRS stated that it currently marks the accounts of
taxpayers when it identifies, either through systemic processes or through manual account
review, that the taxpayer is a victim of identity theft. It places an identity theft marker on these
accounts to streamline assistance for taxpayers and to help mitigate future account problems.
When it marks these accounts, it also generates a notice to these victims informing them that
their information appears to have been compromised and of the steps they can take to protect
their identities. However, as stated in the report, the IRS has no procedures for employees to
initiate a process for notifying taxpayers who may be unaware that their Social Security Numbers
have been stolen, as evidenced by the situation we presented in the report. Functional employees

5
    A compliance system that provides tools needed to perform detection of potentially criminal fraudulent tax returns.
                                                                                                                      4
                               Procedures Need to Be Developed for
                      Collection Issues Associated With Individual Taxpayer
                                      Identification Numbers


are not instructed to put an identity theft indicator on the account of the victim or forward the
case to the Identity Theft function when it is other than the victim who has reported the identity
theft.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
Services), at (202) 622-5916.




                                                                                                     5
                                      Procedures Need to Be Developed for
                             Collection Issues Associated With Individual Taxpayer
                                             Identification Numbers




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 4
          Internal Guidelines Should Be Updated to Handle Collection
          Issues Associated With Individual Taxpayer Identification Numbers .........Page 4
                    Recommendation 1:........................................................Page 7

                    Recommendation 2: .......................................................Page 8

          Income Matching Associated With Individual Taxpayer Identification
          Numbers Present Many Challenges to Tax Administration .........................Page 9
                    Recommendations 3 and 4: ..............................................Page 12


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 13
          Appendix II – Major Contributors to This Report ........................................Page 15
          Appendix III – Report Distribution List .......................................................Page 16
          Appendix IV – Outcome Measure ................................................................Page 17
          Appendix V – Management’s Response to the Draft Report .......................Page 18
                 Procedures Need to Be Developed for
        Collection Issues Associated With Individual Taxpayer
                        Identification Numbers




                   Abbreviations

IRS          Internal Revenue Service
ITIN         Individual Taxpayer Identification Number
TIGTA        Treasury Inspector General for Tax Administration
U.S.         United States
                                  Procedures Need to Be Developed for
                         Collection Issues Associated With Individual Taxpayer
                                         Identification Numbers




                                            Background

An Internal Revenue Service (IRS) employee contacted the Treasury Inspector General for Tax
Administration (TIGTA) with concerns about the lack of guidance available to resolve levy
issues associated with Individual Taxpayer Identification Numbers (ITIN) 1 and individuals who
work using another person’s identity. Individuals using another person’s Social Security
Number to work were having their wages attached by levies 2 associated with the account of the
legitimate holder of the Social Security Number. The employee was concerned that there were
no procedures on how to resolve the levy issue.
However, this situation presents additional challenges to tax administration. For example:
    •   Were the wages reported on a tax return using an ITIN?
    •   Was the account of the legitimate holder of the Social Security Number referred to the
        IRS’ Identity Theft function?
    •   Were the wages removed from the account of the legitimate holder of the Social Security
        Number, the apparent victim of identity theft?
In February 2009, the Federal Trade Commission reported that for the ninth year in a row
identity theft was the number one consumer complaint nationwide. Identity theft occurs when
someone uses Personally Identifiable Information, such as an individual’s name, Social Security
Number, credit card numbers, or other account information, to commit fraud and other crimes.
Identity theft affects tax administration when an individual
intentionally uses the identity of another person to file a
                                                                   Identity theft affects tax
false tax return or fraudulently obtain employment.           administration when an individual
The IRS issues ITINs to help individuals comply with          intentionally uses the identity of
                                                              another person to file a false tax
Federal tax laws and provide a means to efficiently             return or fraudulently obtain
process and account for tax returns. Only an individual                 employment.
who has a valid filing requirement or is filing a tax return
to claim a refund of over-withheld tax is eligible to receive
an ITIN. An ITIN is issued regardless of an individual’s immigration status.




1
  The ITIN was created to provide individuals who are not eligible to obtain a Social Security Number with an
identification number for tax purposes. An ITIN is a nine-digit number that always begins with the number 9 and
has a 7 or 8 in the fourth digit, for example 9XX-7X-XXXX.
2
  A levy is a legal seizure of property to satisfy a tax debt.
                                                                                                          Page 1
                               Procedures Need to Be Developed for
                      Collection Issues Associated With Individual Taxpayer
                                      Identification Numbers



The issuance of an ITIN does not:
   •   Change an individual’s immigration status.
   •   Entitle the individual to Social Security benefits.
   •   Entitle the individual to work in the United States (U.S.).
   •   Entitle the individual to the Earned Income Tax Credit.
In general, the Social Security Administration limits its assignment of Social Security Numbers
to individuals who are U.S. citizens and alien individuals legally admitted to the U.S. for
permanent residence or under other immigration categories authorizing U.S. employment.
Consequently, individuals who do not meet these criteria cannot obtain Social Security Numbers.
The ITIN does not confer the right to employment of an
otherwise ineligible individual, and the ITIN cannot
legally be used to gain employment. However, many            The ITIN does not confer the right
                                                               to employment, and the ITIN
tax returns are filed by taxpayers who use another                cannot be used to gain
individual’s name and/or Social Security Number to                     employment.
work, but file tax returns using their own names and
assigned ITINs.
Consequences of using another person’s name and Social Security Number to work and report
income include the following:
   •   Wages earned by an individual who works using another person’s Social Security
       Number will be reported by the employer to the Social Security Administration as being
       earned by the individual assigned that Social Security Number.
   •   Wages earned by an individual using another person’s Social Security Number will be
       reported to the IRS by the Social Security Administration as income to the individual
       assigned the Social Security Number.
   •   The individual assigned the Social Security Number will not report the wages on his or
       her tax return, if a tax return was required and/or filed.
Other complications occur when individuals use their own names but other persons’ Social
Security Numbers to work or use an ITIN to work and report wages and other income (such as
interest income).
This review was performed at the Wage and Investment Division Program office in
Atlanta, Georgia; the Taxpayer Assistance Centers in Gainesville, Georgia, and
Greenville, South Carolina; and the Small Business/Self-Employed Division in
New Carrollton, Maryland; and the Field Collection offices in Decatur and Smyrna, Georgia,
during the period September through December 2009. We conducted this performance audit in

                                                                                           Page 2
                              Procedures Need to Be Developed for
                     Collection Issues Associated With Individual Taxpayer
                                     Identification Numbers



accordance with generally accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objective. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on our
audit objective. Detailed information on our audit objective, scope, and methodology is
presented in Appendix I. Major contributors to the report are listed in Appendix II.




                                                                                         Page 3
                                  Procedures Need to Be Developed for
                         Collection Issues Associated With Individual Taxpayer
                                         Identification Numbers




                                     Results of Review

Internal Guidelines Should Be Updated to Handle Collection Issues
Associated With Individual Taxpayer Identification Numbers
There are no internal guidelines that address what an IRS employee should do when an
individual who has used another person’s Social Security Number to work contacts the IRS to
have a wage levy released. How the IRS responds depends on whether the individual using
another person’s Social Security Number to work has an ITIN and/or has filed a tax return.
•       Tax complications can occur for the legitimate holder of the Social Security Number
    A levy is a legal seizure of property to satisfy used by other(s) to work. These
    a tax debt. Levies are different from liens. A   complications can occur when the IRS
    lien is a claim used as security for the tax     matches income to tax returns and identifies
    debt, while a levy actually takes the property   income that is not reported on the tax return
    to satisfy the tax debt.
                                                     of the legitimate holder of the Social
    If taxes owed are not paid, the IRS may seize    Security Number. The income could result
    and sell any type of real or personal property
    that the taxpayer owns or has an interest in.    in additional taxes owed. The legitimate
    For instance, it could:                          holder of the Social Security Number must
    • Seize and sell property that the taxpayer      prove that this income is not his or hers.
        holds (such as a car, boat, or house).
                                                      •   Tax complications can occur for the
    •   Levy property that is the taxpayer’s but is
        held by someone else (such as wages,
                                                          individual who used another’s Social
        retirement accounts, dividends, and bank          Security Number to work when collection
        accounts).                                        actions are taken on the account of the
    The IRS usually levies only after three               legitimate holder of the Social Security
    requirements are met:                                 Number. When a taxpayer owes additional
    •   The taxpayer was assessed the tax and             taxes, the IRS may levy property. The
        sent a notice for demand for payment.             individual who has stolen the identity of a
    •   The taxpayer neglected or refused to pay          taxpayer to work can have his or her wages
        the tax.                                          levied. He or she must then provide
    •   The taxpayer was sent a final notice at           sufficient support to the IRS to release the
        least 30 days before the levy.                    levy.




                                                                                                Page 4
                               Procedures Need to Be Developed for
                      Collection Issues Associated With Individual Taxpayer
                                      Identification Numbers



Internal guidelines address what employees should do when taxpayers claim that
income reported with their Social Security Numbers is not theirs
The following scenario provides an example of a tax complication created when an
individual uses another person’s identity to work.
       A taxpayer received a Notice of Underreported Income (CP 2000) from the IRS
       stating that he did not report all his income on his Tax Year 2008 return. He did
       not report $3,500 in wages from XYZ Company. The taxpayer claims he never
       worked for XYZ Company but worked the entire year for ABC Company. He
       believes he may be a victim of identity theft.
When the above scenario is encountered, internal guidelines instruct IRS employees to advise
taxpayers who call the toll-free telephone lines or visit a Taxpayer Assistance Center to do the
following:
1. Contact the Federal Trade Commission at (877-438-4338) to complete an Identity Theft
   Affidavit.
2. Make a report to their local police and the three major credit bureaus.
3. Respond to the IRS notice and include the following documentation: A copy of the
   taxpayer’s valid U.S. Federal or State government-issued form of identification including, for
   example, driver’s license, State identification card, Social Security card, or passport and a
   signed IRS Identity Theft Affidavit (Form 14039).
IRS employees subsequently work the taxpayer’s case and if the proper documents are provided,
employees close the case by removing the income from the taxpayer’s account and sending him
or her notification that the issue has been resolved. Using the previous example, the IRS
employee would remove the income from XYZ Company from the taxpayer’s account and send
a letter advising him or her that the income has been removed and the issue has been resolved.

Internal guidelines do not address how to release a wage levy when the IRS has
levied the wages of an individual who used another individual’s Social Security
Number to work
The following scenario provides a second example of a tax complication created when an
individual uses another person’s identity to work.
       An individual visits an IRS walk-in office, called a Taxpayer Assistance Center, to
       ask the IRS to release a levy on his wages at ABC Company for taxes owed for
       Tax Year 2004. He brings in a copy of a levy from the IRS that was sent to his
       employer, the ABC Company, to attach wages for Taxpayer A (the lawful holder
       of the SSN). He provides two picture identifications—an employee identification


                                                                                             Page 5
                               Procedures Need to Be Developed for
                      Collection Issues Associated With Individual Taxpayer
                                      Identification Numbers



       card with the name of Taxpayer A and his current driver’s license with the name
       of Taxpayer B (his actual name).
There are specific instructions addressing the situation where a taxpayer who used another
person’s Social Security Number to work (called the “borrower”) comes into a Taxpayer
Assistance Center and admits working under a “borrowed” Social Security Number. The
borrower “wants to get right with the system.”
Once the borrower proves the use of the Social Security Number via pay stubs or any other
substantiating document, the Taxpayer Assistance Center employee is instructed to generate a
printout of income documents available in IRS computer systems and provide those to the
borrower. The employee is to advise him or her to complete a tax return and submit it with an
application for an ITIN. The employee is also instructed not to put an identity theft indicator on
the account of the identity theft victim since the borrower is not the taxpayer.
There are no guidelines for Taxpayer Assistance Center employees to determine if a levy should
be released and what steps should be taken to release the levy when the borrower’s wages are
subject to a levy. Taxpayer Assistance Center guidelines state that taxpayers will generally visit
a Taxpayer Assistance Center once they learn that a Notice of Levy has been attached and will
request a release. Employees above a certain pay grade level may release a levy under certain
circumstances and are referred to IRS Collection function guidelines. These guidelines do not
provide instructions relating to the previous scenario. This also holds true for assistors who
answer the toll-free telephone lines.
Taxpayer Assistance Center assistors who have encountered the previous scenario have released
the levy when the taxpayer proved to the assistor that the wages were his or hers but that he or
she was not the taxpayer with the balance due account (the legitimate holder of the Social
Security Number). However, the following actions are not required and were not taken to
ensure:
   •   The wages were reported on a tax return using an ITIN.
   •   The account of the legitimate holder of the Social Security Number was referred to the
       IRS’ Identity Theft function for resolution and an indicator placed on the taxpayer’s
       account.
   •   The wages were removed from the account of the legitimate holder of the Social Security
       Number.
It is also unclear if the wages reported on the account of the legitimate holder of the Social
Security Number were a direct cause of or contributed to him or her owing additional taxes.
This situation was reported as occurring at only two Taxpayer Assistance Centers and we did not
identify any other employees experiencing issues with levies associated with ITIN taxpayers.
However, there are no data to determine the prevalence of the problem.

                                                                                             Page 6
                               Procedures Need to Be Developed for
                      Collection Issues Associated With Individual Taxpayer
                                      Identification Numbers



The IRS stated that it has a working group that addresses unique situations, such as the situation
above and it addressed this situation in part. However, it is waiting for a response from IRS
Counsel before it proceeds.
Also, although the scenario deals with the issue of a wage levy, other collection issues related to
ITIN taxpayers could be presented to IRS employees. The IRS has not updated its internal
guidelines to include collection issues related to identity theft and ITINs. Guidelines need to be
developed to cover issues related to identity theft and the use of ITINs to work. Without
collection procedures in place, taxpayers cannot be assured that the correct actions are being
taken to address their issues.

There are no procedures for the IRS to contact taxpayers who unknowingly may
be victims of identity theft
The IRS has no procedures for employees to initiate a process for notifying taxpayers who may
be unaware that their Social Security Numbers have been stolen. When banks or credit card
companies suspect that a customer’s identity has been stolen or his or her account has been
compromised, the customer is notified immediately so that the bank can assist the customer with
the issue. However, the IRS does not notify the taxpayer when there is evidence that the
taxpayer’s identity has been stolen. Currently, the procedures require that the taxpayer first
contact the IRS before the account can be flagged with an identity theft indicator. Without a
process in place to notify taxpayers when there is evidence of identity theft, the taxpayer may be
burdened and the taxpayer may expend extensive resources to resolve identity theft issues.
During the IRS Commissioner’s testimony on April 16, 2008, the Chairman of the Senate
Finance Committee expressed a concern that the IRS was not notifying the rightful owner of a
Social Security Number when it was being used by someone else. In response to the concern,
the IRS Commissioner stated that “…we’re [IRS] working on doing that now in our outgoing
communication to taxpayers so they’ll know if someone else is using their Social Security
Number.”

Recommendations
The Commissioners, Small Business/Self-Employed and Wage and Investment Divisions,
should:
Recommendation 1: Update internal procedures and guidelines to ensure all collection issues
are considered and all required actions are taken to resolve the issues. For example, guidance
should include: 1) what documents are required to prove an individual’s identity, 2) what
documents are required to prove who earned the wages and who is responsible for any taxes
owed, and 3) how to ensure all filing requirements for reporting the wages have been met. In
addition, if identity theft has been identified, the guidelines should include all actions that need


                                                                                             Page 7
                               Procedures Need to Be Developed for
                      Collection Issues Associated With Individual Taxpayer
                                      Identification Numbers



to be taken to resolve any account issues for the victim of the identity theft and to place an
indicator on his or her tax account.
       Management’s Response: The IRS agreed with this recommendation and has
       already begun taking steps to update its procedures. Several updates are currently in the
       approval process.
       All IRS functions have procedures in place to mark accounts when taxpayers report they
       are victims of identity theft and provide standard documentation. The IRS also has a
       process in place to resolve account issues for taxpayers who have been victims of identity
       theft. The Identity Protection Specialized Unit receives a monthly list of accounts with
       an identity theft indicator. A review is conducted on every account to ensure all identity
       theft issues are addressed and resolved.
       Office of Audit Comment: Internal guidelines for Taxpayer Assistance Center
       employees instruct them not to put an identity theft indicator on the taxpayer account
       since the ITIN taxpayer (borrower) who came into the Taxpayer Assistance Center is not
       the identity theft victim. Employees are not instructed to forward the case to the Identity
       Theft function so that it can place an identity theft indicator on the account. Therefore,
       there is no procedure in place to resolve the identity theft victim’s account when it is not
       the identity theft victim who reported the problem.
Recommendation 2: Establish a process to notify a taxpayer when there is evidence that the
taxpayer’s identity (name and Social Security Number) has been compromised.
       Management’s Response: The IRS disagreed with the assertion that it does not have
       procedures to notify taxpayers when there is clear evidence of identity theft. The Social
       Security Administration has a program in place called the Employee No-Match Letter
       that requests correct information from individuals. IRS involvement would possibly be a
       duplication of the Social Security Administration’s efforts.
       The IRS currently marks the accounts of taxpayers when they identify, either through
       systemic processes or through manual account review, that the taxpayer is a victim of
       identity theft. It places an identity theft marker on the accounts to streamline assistance
       for taxpayers and to help mitigate future account problems. When it marks these
       accounts, it also generates notices to the victims informing them their information
       appears to have been compromised and of the steps they can take to protect their identity.
       The IRS will explore the feasibility of expanding the use of identity theft indicators and
       notification processes where it has the capability and legal authority to do so and where
       doing so would be beneficial to taxpayers.
       Office Audit Comment: As stated in the report, the IRS has no procedures for
       employees to initiate a process for notifying taxpayers who may be unaware that their
       Social Security Numbers have been stolen, as evidenced by the situation we presented in

                                                                                                 Page 8
                                  Procedures Need to Be Developed for
                         Collection Issues Associated With Individual Taxpayer
                                         Identification Numbers



        the report. Functional employees are not instructed to put an identity theft indicator on
        the account of the victim or forward the case to the Identity Theft function when it is
        other than the victim who has reported the identity theft.

Income Matching Associated With Individual Taxpayer Identification
Numbers Present Many Challenges to Tax Administration
Tax administration becomes more complex when individuals:
    •   Use an ITIN both to work and report wages and income.
    •   Switch between using a Social Security Number and an ITIN to work and report wages
        and income.
    •   Use an ITIN to report income and file a tax return but use another individual’s identity to
        work.
    •   Use an ITIN to report income and file taxes, use their own name to work but use another
        individual’s Social Security Number to work.
The IRS associates taxpayers with tax records using a Taxpayer Identification Number, be it an
ITIN, Social Security Number, or Employer Identification Number. 3 Using the Taxpayer
Identification Number, the IRS matches income and wages from reporting documents to
taxpayers’ tax returns. Problems occur when there are mismatches, such as the name does not
match the assigned Social Security Number, the taxpayer used a Social Security Number to work
but filed using an ITIN, or the taxpayer used an ITIN to work and report wages and income.
From a statistical sample of 96 records from a population of 551,108 Tax Year 2007
electronically filed tax returns:
•   4 records (4 percent) showed that the taxpayer filed a tax return using an ITIN but used
    another person’s name and Social Security Number to work (possible instances of identity
    theft). The name on the Wage and Tax Statement (Form W-2) matched the name of the
    holder of the Social Security Number but did not match the name on the ITIN tax return.
    There is a potential that 22,962 4 taxpayers for Tax Year 2007 had their names and Social
    Security Numbers used by ITIN tax filers to work; 114,812 taxpayers projected over 5 years.
    The IRS will be unable to match the income earned to the associated taxpayer, but will match
    it to the taxpayer who is legally assigned the Social Security Number as part of the


3
  An Employer Identification Number is a Federal Tax Identification Number used to identify a business entity,
including estates and trusts.
4
  4.1666 percent multiplied by 551,108 equals 22,962, and 22,962 multiplied by 5 years (projection) equals 114,812.
Due to rounding, numbers may not balance.
                                                                                                           Page 9
                                  Procedures Need to Be Developed for
                         Collection Issues Associated With Individual Taxpayer
                                         Identification Numbers



    Automated Underreporter Program. 5 Further, there were no identity theft indicators on any
    of the accounts of the taxpayers whose Social Security Numbers had been used by ITIN
    taxpayers to work.
•   73 records (76 percent) showed the taxpayer used his or her name but another person’s Social
    Security Number to work. Twenty-seven records showed the Social Security Numbers used
    to work and report wages belong to individuals under the age of 18, ***1***************
    *********************************************1************************. In
    addition, 6 Social Security Numbers belonged to taxpayers who are now deceased and
    5 Social Security Numbers belong to individuals who are over age 100.
    In these instances, the IRS and the Social Security Administration do not associate the
    income and benefits with the lawful taxpayer. *********2(e)***********************
    ********************2(e)**************************************************
    *************************************************************************
    *************************************.
    The number of Forms W-2 with Social Security Number/name mismatches is substantial.
    The Social Security Administration maintains an Earnings Suspense File for wage
    information reported on the Forms W-2 where the Social Security Number and name do not
    match. This file contained approximately 296 million mismatched Forms W-2 related to
    $835.7 billion in wages at the end of Calendar Year 2007. In some cases, the Social Security
    Administration has tried to correct these mismatches by notifying employers of the errors on
    the Forms W-2 through a “no match” letter. Employers that receive these letters are
    requested to take steps to correct the mismatch issue for each Social Security Number that
    failed verification with Social Security Administration records. If the employer does not
    make an effort to correct the Forms W-2, the IRS can assess a penalty.
    Both the TIGTA and the Government Accountability Office have issued reports that address
    the tax problems related to Social Security Number/name mismatches. 6
•   19 (20 percent) records that included Forms W-2 could not be matched to any employers’
    records and a determination could not be made whether the ITIN taxpayer was using another
    person’s Social Security Number. We attempted to verify the information by matching the
    Employer Identification Number, wages, and/or withholding on the employee’s Form W-2 to
    the employer’s returns. However, for these 19 records, the combination of Employer

5
  The Underreporter Program works underreporter cases resulting when computer analysis detects a discrepancy
between the income reported on tax returns and the income reported by third parties, such as employers and
financial institutions.
6
  Mismatched Names and Identification Numbers on Information Documents Could Undermine Strategies for
Reducing the Tax Gap (Reference Number 2007-30-159, dated August 31, 2007) and Tax Administration: IRS
Needs to Consider Options for Revising Regulations to Increase the Accuracy of Social Security Numbers on Wage
Statements (GAO-04-712, dated August 2004).
                                                                                                      Page 10
                                 Procedures Need to Be Developed for
                        Collection Issues Associated With Individual Taxpayer
                                        Identification Numbers



    Identification Number, wages, and withholding could not be matched to employer records
    maintained in the IRS computer systems.
The IRS stated there were almost 3 million ITIN tax returns filed for Tax Year 2007. TIGTA
analysis shows that about 1.2 million
Tax Year 2007 ITIN tax returns reported wages
earned by ITIN taxpayers using another person’s      Approximately 1.2 million Tax Year 2007 tax
Social Security Number. ******2(f)*********               returns reported wages earned by
****2(f)*******************************                     ITIN taxpayers using another’s
                                                                Social Security Number.
********************.
In addition, the IRS cannot currently identify identity theft cases created by ITIN taxpayers who
used another person’s name and Social Security Number to work. This would allow the IRS to
notify the legitimate owner of the Social Security Number that he or she may be the victim of
identity theft and take steps to address employment-related identity theft issues.
In Fiscal Year 2008, we reported that no action is taken to stop someone from continuing to
commit employment-related identity theft using another person’s Social Security Number and
name. 8 The IRS does not actively try to identify or stop the individuals from committing identity
theft. Moreover, the IRS does not notify the employer of the problem of their employee using
someone else’s identity. Because the IRS and the Social Security Administration will assume
the information on the Form W-2 is accurate, the earnings resulting from the identity theft will
be attributed to the lawful taxpayers for determining both Social Security benefits and tax
liabilities. The IRS generally does not pursue the taxes that may be due on income earned using
a stolen identity.
IRS management stated that the IRS is unable to do more to stop continued use of someone’s
identity in employment-related identity theft cases because notifying employers that their
employee is using another person’s identity is not permissible because it would be an unlawful
disclosure of tax information. In addition, the IRS does not have sufficient enforcement
resources to address most of these cases and it would not be worthwhile to pursue
employment-related identity theft cases for unreported tax liabilities because, according to IRS
officials, the taxes owed on most of these cases are not significant. However, without an
effective process of identifying these taxpayers, the IRS and the taxpayer will continue to expend
additional resources in resolving these identity theft issues.
The IRS is developing a 5-year strategy for the Office of Privacy, Information Protection and
Data Security function, and will continue to improve strategies focused on tax fraud identity
theft. The Criminal Investigation Division is increasing the recommendations for prosecutions

7
  **************2(f)*************************************************************************
*******************************************************************************************.
8
  Outreach Has Improved, but More Action Is Needed to Effectively Address Employment-Related and Tax Fraud
Identity Theft (Reference Number 2008-40-086, dated March 25, 2008).
                                                                                                   Page 11
                                     Procedures Need to Be Developed for
                            Collection Issues Associated With Individual Taxpayer
                                            Identification Numbers



of identity theft cases under traditional statutes within the IRS’ jurisdiction as directed by the
Department of Justice Tax Division.

Recommendations
The Deputy Commissioner for Operations Support, should:
Recommendation 3: Develop a cross-referencing process to match ITIN tax returns to the
related reporting returns.
           Management’s Response: The IRS has already begun developing a process to
           match ITIN tax returns to their related reporting returns. Once this process is established,
           it will determine how the data may be used to refine procedures related to collection
           activity and victim assistance.
Recommendation 4: Develop a process to capture data to determine potential identity theft
victims.
           Management’s Response: The IRS has procedures to identify theft victims through
           the Electronic Fraud Detection System. 9 Where appropriate, taxpayer’s accounts are
           marked with an identity theft indicator. In addition, its duplicate filing process
           procedures compare certain data elements of duplicate tax returns to determine potential
           identity theft victims.
           The IRS agreed to explore the feasibility of a process to more broadly capture data to
           determine potential identity theft victims.




9
    A compliance system that provides tools needed to perform detection of potentially criminal fraudulent tax returns.




                                                                                                             Page 12
                                   Procedures Need to Be Developed for
                          Collection Issues Associated With Individual Taxpayer
                                          Identification Numbers



                                                                                                   Appendix I

          Detailed Objective, Scope, and Methodology

Our overall objective was to determine whether the IRS has procedures to effectively handle
collection issues related to ITINs. To accomplish our objective, we:
I.       Determined if procedures and guidelines exist for Taxpayer Assistance Center1
         employees to follow when meeting with ITIN taxpayers with collection issues.
         A. Reviewed internal Taxpayer Assistance Center guidelines and procedures related to
            ITIN collection issues.
         B. Interviewed Taxpayer Assistance Center employees who may have encountered ITIN
            collection issues.
         C. Discussed with appropriate IRS management the procedures, policies, guidelines, and
            regulations for ITIN collection issues.
II.      Determined if the Collection function has procedures for revenue officers to follow when
         contacting ITIN taxpayers.
         A. Reviewed Collection function procedures and guidelines for ITIN collection issues
            for revenue officers.
         B. Interviewed revenue officers who have encountered ITIN taxpayers for their
            experiences with collection issues.
         C. Discussed with appropriate IRS management the procedures, policies, guidelines, and
            regulations for ITIN collection issues.
III.     Determined the number of taxpayers who file a tax return using an ITIN while using
         another individual’s Social Security Number to work.
         A. From the Returns Transaction File, 2 identified the Tax Year 2007 ITIN tax returns
            processed during Calendar Year 2008 that did not have a corresponding ITIN Wage
            and Tax Statement (Form W-2) issued by an employer. We assessed the reliability of




1
  A local IRS office with employees who answer questions, provide assistance, and resolve account-related issues
for taxpayers face to face.
2
  The Returns Transaction File contains all edited, transcribed, and error-corrected data from the U.S. Individual
Income Tax Returns (Form 1040 series) and related forms for the current processing year and 2 prior years.
                                                                                                           Page 13
                                  Procedures Need to Be Developed for
                         Collection Issues Associated With Individual Taxpayer
                                         Identification Numbers



             the Returns Transaction File by performing run-to-run balancing and verifying a
             sample of all fields against the IRS Integrated Data Retrieval System. 3
        B. Selected a statistically valid sample of 96 ITIN records from a population of
           551,108 Tax Year 2007 tax returns that were identified on the Return Transaction
           File. We used a 95 percent confidence level, a 50 percent error rate, and a 10 percent
           precision level. For each of the 96 records, we used the Integrated Data Retrieval
           System Command Code TRDBV to determine the name(s) used on the tax returns,
           the filing statuses, and the number of Forms W-2 attached. From each Form W-2, we
           obtained the payee Taxpayer Identification Number, ITIN or Social Security Number,
           the payer Employer Identification Number, 4 the wage amounts, and the Federal tax
           withheld amounts.
IV.     Contacted the IRS Office of Privacy, Information Protection and Data Security,
        Operations Support organization to identify any actions it may be taking to address ITIN
        collection issues.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the Office of Privacy, Collection and Field
Assistance functions’ policies, procedures, and practices for processing levies related to ITINs
and identifying identity theft. We evaluated controls by interviewing management and
reviewing policies and procedures.




3
  IRS computer system capable of retrieving or updating stored information; it works in conjunction with a
taxpayer’s account records.
4
  An Employer Identification Number is a Federal Tax Identification Number used to identify a business entity,
including estates and trusts.
                                                                                                          Page 14
                             Procedures Need to Be Developed for
                    Collection Issues Associated With Individual Taxpayer
                                    Identification Numbers



                                                                             Appendix II

                 Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
Services)
Augusta R. Cook, Director
Lena Dietles, Audit Manager
Tracy K. Harper, Lead Auditor
Jerome Antoine, Auditor




                                                                                    Page 15
                            Procedures Need to Be Developed for
                   Collection Issues Associated With Individual Taxpayer
                                   Identification Numbers



                                                                       Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Chief Technology Officer OS:CTO
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Wage and Investment Division SE:W
Director, Collection, Small Business/Self-Employed Division SE:S:C
Director, Compliance, Wage and Investment Division SE:W:CP
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Director, Office of Privacy, Information Protection and Data Security OS:P
Senior Operations Advisor, Wage and Investment Division SE:W:S
Chief, Program Evaluation and Improvement, Wage and Investment Division SE:W:S:PRA:PEI
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Controls OS:CFO:CPIC:IC
Audit Liaison: Chief, Program Evaluation and Improvement, Wage and Investment Division
SE:W:S:PRA:PEI




                                                                               Page 16
                                  Procedures Need to Be Developed for
                         Collection Issues Associated With Individual Taxpayer
                                         Identification Numbers



                                                                                               Appendix IV

                                      Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•   Taxpayer Privacy and Security – Potential, 22,962 taxpayers for Tax Year 2007 that had their
    names and Social Security Numbers used by ITIN tax filers for work; 114,812 taxpayers
    projected over 5 years (see page 9).

Methodology Used to Measure the Reported Benefit:
A statistically valid sample of 96 ITIN records was selected from a population of 551,108 Tax
Year 2007 tax returns that were identified on the Return Transaction File. 1 For each of the
96 records, the Integrated Data Retrieval System 2 Command Code 3 TRDBV was used to
determine the name(s) used on the tax returns, the filing statuses, and the number of Wage and
Tax Statements (Form W-2) attached. From each Form W-2, the payee Taxpayer Identification
Number, either the ITIN or Social Security Number, the payer Employer Identification Number, 4
the wage amounts, and the Federal tax withheld amounts were obtained and matched to
employer wage reporting documents. We used a 95 percent confidence level, an expected error
rate of 50 percent, and a precision level of 10 percent.
Based on the sample results, it was determined that 4 (4 percent) of 96 cases from the population
of 551,108 Tax Year 2007 tax returns had their names and Social Security Numbers used for
work by ITIN tax filers. This projected out is 22,962 taxpayers for Tax Year 2007 and 114,812
taxpayers projected over 5 years. 5 The number of affected taxpayers is between 6,338 and
51,253 (the margin of error is ± 4.08 percent).


1
  The Returns Transaction File contains all edited, transcribed, and error-corrected data from the U.S. Individual
Income Tax Returns (Form 1040 series) and related forms for the current processing year and 2 prior years.
2
  The Integrated Data Retrieval System is the IRS computer system capable of retrieving or updating stored
information; it works in conjunction with a taxpayer’s account records.
3
  Command codes are online interactive real-time programs in the IRS computer systems.
4
  An Employer Identification Number is a Federal Tax Identification Number used to identify a business entity,
including estates and trusts.
5
  4.1666 percent multiplied by 551,108 equals 22,962, and 22,962 multiplied by 5 years (projection) equals 114,812.
Due to rounding, numbers may not balance.
                                                                                                          Page 17
               Procedures Need to Be Developed for
      Collection Issues Associated With Individual Taxpayer
                      Identification Numbers



                                                    Appendix V

Management’s Response to the Draft Report




                                                          Page 18
         Procedures Need to Be Developed for
Collection Issues Associated With Individual Taxpayer
                Identification Numbers




                                                    Page 19
         Procedures Need to Be Developed for
Collection Issues Associated With Individual Taxpayer
                Identification Numbers




                                                    Page 20
         Procedures Need to Be Developed for
Collection Issues Associated With Individual Taxpayer
                Identification Numbers




                                                    Page 21
         Procedures Need to Be Developed for
Collection Issues Associated With Individual Taxpayer
                Identification Numbers




                                                    Page 22
